<A

"S'

i-'r-’ :

.-X

■X

Docket Number
Rule 1(a)

United States Supreme Court
Rule 1(b)

!~
I

In Re
Richard J Ramsey (petitioner pro-se)

I
■

I

!

I: .
L

FILED
NOV 0 9 2020

V.

OFFICE OF THE CLERK
SUPREME COURT US

United States of America, et al
Judge Advocate General Office (Army)
U.S. Department of Justice (Attorney General)

Writ of Habeas Corpus pursuant to
28 USC 2241,1651 (a), the all writs act
From the United States Courts of Appeals
Of the Armed Forces U.S. Cpl. Richard J. Ramsey

Richard J. Ramsey
4A Buck Road
Middletown, RI 02842
Tel: (401)256-2866

'V

Questions
Rule 24 1(a)
I.

Whether military plea-bargains procedures are unconstitutional creating a lack of
jurisdiction over petitioners court-martial therefore, making unlawful convictions.

II.

Whether all military defense counsels are ineffective by advising military accused to
waive his right to a court-martial; when waiver of the court would undo the jurisdiction
of the court thereby violating the 6th amendment of the U.S. Constitution effective
assistance of counsel.

III.

Whether an accused person (in civilian court) can waive trial by jury under the 6th
amendment; therefore waiving the right to jury trial.

IV.

Whether the U.S. Supreme Court usurped its authority by allowing waiver of trial by jury
pursuant to the 6th amendment.

V.

Whether the U.S. Supreme Court, by one of its rulings has the authority to change the
Constitution, subsequently usurping Congress authority under Article 5 of the
Constitution to make a lawful change to the Constitution.

VI.

Whether the U.S. Supreme Court has the authority to change the constitutional duty
placed on them to provide trial by jury for all crimes.

VII.

Whether the U.S. Supreme Court usurped its authority in making a ruling (Singer v. U.S.)
that adds another method of finding an accused guilty.

VIII.

Whether the Congress can delegate to the U.S. Supreme Court, its authority to make trial
by jury a constitutional right to be waived.

(i)
•i* >•

IX.

Who has the authority to waive a required duty placed upon the Judicial Branch of
Government? Subsequently, where does this authority come from?

X.

Whether plea-bargains are unconstitutional.

(ii)

List of Parties
Rule 24 1(b)

In Re (petitioner)
Richard J. Ramsey

v.

United States of America et al

1.

Attorney General
Office of the U.S. Attorney General
Main Justice Building
lOst and Constitution Ave NW
Washington, DC 20530

2.

Office of the J.A.G.
1777 North Kent Street 10th Floor
Alexandria, VA 22209-2133
or
Rosslyn, VA 22209-2194

(iii)

History of Case
Rule 24 1(b)
1.

On 23 July 19951 was apprehended as a suspect for violating Article 120,129,125,128,
128, and 134 [UCMJ] Uniform Code of Military Justice. See also 10 § 120,129,125, 128,
128, and 134.

2.

On 7 Sept 1995, charges were preferred.

3.

On or about 7 Oct 1995 an Article 32 investigation was conducted [pre-trial hearing].

4.

On or about 24 Oct 1995 charges were referred to a general court martial.

5.

A pre-trial hearing was conducted on 27 Oct 1995 and 6 Nov 1995.

6.

On 5 Dec 19951 entered into a plea-bargain with the convening authority [here after (CA)]

7.

I appealed to the U.S. Army court of criminal appeals [here after (ACCA)] relief was
denied on 27 Aug 1997 case #9510206.

8.

I appealed to the U.S. court of appeals for the armed forces [here after (CAAF)] relief was
denied on or about 12 Jan 1998.

(iv)

Statement of Jurisdiction
Rule 24 (e)
Petitioner states that the issue(s) involved can only be heard by this court. These issues are such a
nature that only the U.S. Supreme Court can render the appropriate relief. Further, no lower court
can overrule a prior Supreme Court case.
This court has jurisdiction over this issue. Authority over lower courts [circuit/district] was
bestowed as in aid of its supervisory position over lower courts. Pursuant to 28 USC § 2241 and
28 USC § 1651 (a) and all writs act.
This court has jurisdiction over this military issue pursuant to 28 USC § 2241 and 28 USC §
1651 (a) and 28 USC § 1259.
This is an aid of this court jurisdiction over lower courts. A past Supreme Court has released the
Government of its required duty to provide trials by jury for all crimes. First to minor
offensives.... then in (Singer v. U.S.) 1968,...... to serious crimes.

(v)

Citations of Laws/Rules
1.

U.S. Constitution Article 1 Sec 8 Cl 14
“Congress makes the rules, regulations for the land and naval forces”

2.

U.S. Constitution Article 3 Sec 2 Cl 3
“Trial of all crimes, shall be by jury”

3.

U.S. Constitution 6th Amendment
“Impartial juries”

4.

U.S. Constitution Article 5
“2/3 of Senate, 2/3 of House of Representatives, and/or 3/4 of all state legislators”

5.

[UCMJ] Article 36 /10 USC § 836
“President can adopt procedure used in district court, but cannot be contrary to the
[UCMJ],

(vi)

Relief Sought
Petitioner hereby ask and prays for this court to issue an order to the respondents granting
his the following relief.
1. Reverse, set aside the guilty plea by plea agreement
2. Set aside and dismiss the charges with prejudice
3. Reverse and set aside the 28 year sentence to confinement
4. Restore petitioner to his previous rank of corporal E-4
5. Restore lost forfeitures
6. Upgraded petitioner dishonorable discharge
7. Release petitioner from his confinement and parole
8. Have the Federal Bureau of Prisons expunge all records with my name, institution
number 11713-045 on them
9. Award all military inmates jail credit time of 3/1 days for unlawful confinement by plea
agreement
10. Award all civilian inmates 3/1 day jail credit for those who took a plea agreement.

(vii)

W-

In the United States Supreme Court
Habeas Corpus Pursuant to 28 USC 2241 and 1651 (a)

In Re
Richard J. Ramsey

[Petition for extraordinary relief]
[in nature of a habeas corpus

]

v.
USA et al

this case #
To The Honorable Judges

Come now petitioner proceeding pro-se
Petitioner ask this court to issue a show cause order within /5

days of way this habeas

corpus should not issue.
Petitioner ask for review, to determine whether there has been an unlawful waiver of
petitioner right to a general court-martial [here after GCM], Further whether all civilian
plea-bargains are unconstitutional and illegal under the constitution’s 5th amendment “due
process clause”. Petitioner ask this court to liberally construe this habeas corpus as held
within Haines v. Kemer, 404 US 519, 30L. Ed 2d 652,92 set 594 (1972).

(1)

Statement of Case
Come now petitioner proceeding pro-se
Questions I and II
A general court martial is not a constitutional right. See Whelchel v. McDonald 340 U.S.
122,71 set 146, 95 L Ed 141 at 340 US at page 127. 71 set at page 149. The right to trial by
jury guaranteed by the 6th amendment is not applicable to trial by court-martials. See also
U.S. v. Gray 32 mj 751 (ACMR 1993) court martials are not subjected to jury trial
demands of the constitutions Article III.
See [Ex-1] the judge stated I waived a constitutional right to be tried by this court. Trial by
court-martial is not a constitutional right. The court gets jurisdiction when the convening
authority [here after “CA”] refers charges to the court. If I waive trial by court-martial, then
the court is not hearing the charges. This is agreed upon between me and the [CA], The
court is not hearing the charges; the judge is hearing the charges. The general court-martial
no longer had authority to find me guilty. Therefore, I and [CA] waived 1/2 of the
jurisdiction of the court. The [GCM] is not convicting me; but I am getting a GCM
sentences. This plea procedure allows accused the authority to waive a GCM conviction,
but receive a GCM sentences.
Pursuant to Strickland v. Washington 0983) an accused is afforded the right to effective
assistance of counsel. His advice to plead guilty is erroneous. He is allowing his
client.... not to get a [GCM] conviction, but to receive a [GCM] sentence.

(2)

4

Questions III to X
This court has held in U.S. Patton 0968) and T281 US 3111 “The 6th Amendment gives
accused the right to a jury trial.” This right can be waived in serious cases.” In Schick v.
U.S. 195 US. 49 Ed 99.24 Sup ct Rep 826.1 ann cas 585. At Schick 195 U.S. 72 “6th
amendment gives accused the right to a jury trial.” In Schick, this court held petty offensive
can be tried without a jury trial.
U.S. v. Singer 380 US 24, 85 s ct 783.13 L Ed 2d 630 09651. in one of the judge’s opinion
“accused now can waive right to trial by jury for serious offensives.” In U.S. v. Wood
(1936) 299 US 123. 81 L Ed 78. 57 s ct 177. reh denied 0937)299 US 624. 81 L Ed 459.
57 s ct 319.6th amendment was not needed to require trial by jury in cases of crimes, in
view of Article 3 Sec 2 Cl 3.
In Green v. U.S. 2 L Ed 2D, 672. 356. US 165 at T37]. as this court has often observed the
constitution was written to be understood by the voters, it’s words and phrases were used in
their normal and ordinary, as distinguished from technical meaning. Butchers Union Co. v.
Crescent City Co. 111 US 746 0 883). our rights cannot be acts of congress be bartered
away, given away or taken away.
Question IV
Waiving trial by jury goes against the constitution. Article III Sec 2 Cl 3 made trial by jury
a judicial duty placed on the federal government. This is both the individual and collective
right. The 6th amendment never granted jury trial. This amendment only granted
impartiality, not the right to have a jury trial.

(3)

The constitution only granted one way of establishing guilt. Trial by jury plea-bargains
establish a new way of establishing guilt. The plea system advocates waiving a right under
Article 3 Sec 2 Cl 3, not under the 6th amendment. You had a jury trial whether or not the
6th amendment was made. Informing accused you are waiving jury trial under the 6th
amendment is a fraud.
Questions V and VI
If there is another method of establishing guilt, this must come from Congress pursuant to
the voting procedures outlines in Articles of the Constitution, not by the U.S. Supreme
Court ruling. The U.S. Supreme Court on its own (Singer v. U.S.) made a ruling that trial
by jury can be waived. Congress never amended the Constitution to allow waiver of the
Constitution. A change like this must come from Congress pursuant to Article 5 of
Constitution. The Constitution never granted anyone, any authority to waive its provisions.
Questions VII and VIII
The drafters of the Constitution never established a court or this court can find guilt, its
citizens in a method or manner which goes against Article 3 Sec 2 Cl 3 of the constitutional
duty of providing jury trial. The Supreme Court allowing waiver is usurping Congress
authority to amend Article 3. This requires a voting procedure which must be met. An
accused has a right to jury trial Article 3 Sec 2 Cl 3. Congress must use its authority under
Article 5 to change the Constitution; so, the Supreme Court can issue case rulings allowing
waiver of trial by jury.
Questions IX and X
The right ofjury trial is a duty put on the Government by the drafters and voters. The
drafters never said rights were waiver-able. They fought a war to get there rights, not to
waive them. Plea-bargains are unconstitutional. (1) We are being told we waive our jury
trial rights under a statue which doesn’t grant jury trial as a right, see 6th amendment. The
(4)
v*

<4

right being waived is Article 3 Sec 2 Cl 3. This is a duty on the courts. (2) Plea-bargains
must be unconstitutional because, there was never a plea-bargain for over 130 to 150 years.
If the drafters wanted waiver they would have said so. (3) Since there has been no change
to the U.S. Constitutions by Congress, then the Supreme Court usurped Congress authority
(also voting procedures under Article 5) to change the Constitution by saying rights are
waiver-able when Congress needs 2/3 of Congress to vote for such a change.

(5)

Reason for Granting Petition
The authority to waive trial by jury must come from [we the people] through our
representatives in Congress, not by a ruling from the Supreme Court. The waiver of rights
is a fraud, treason. The respondents are trying to say it is your 6th Amendment right, and it
can be waived. Trial by jury is a duty [Article 3 Sec 2 Cl 3], All accused are being
blackmailed into pleading guilty. The respondents are threatening a long sentence to induce
a plea agreement. All attorneys are no longer going to trial. They lack the trial experience
necessary for jury trial. This system is allowing this and making counsel in effective. This
court needs to overturn petitioner’s case and award relief to all who took a plea deal.
The respondents (military) are trying to use a right to court martial as a means to waive
constitutional rights, under 5/6th amendments. You have judges, prosecutors, defense
counsel, appellate judges at [ACCA] [CAAF]; not knowing the correct law and procedure.
The military has no constitutional right to jury trial under the 6th Amendment or Article 3
Sec 2 Cl 3 of the Constitution. Where in the constitution did it grant trial by court-martial
as a constitutional right.

»*

(6)

Conclusion
Its petitioners believe that plea-bargains are unconstitutional; illegal and purport to commit
fraud, treason, and creates malpractice, all civilian cases are invalid. The past Supreme
Court rulings usurped authority not giving to them. They made the ruling-allowing waiver
when Congress never amended Article 3 Sec 2 Cl 3 or the 6th Amendment. I believe
congress must vote using the procedures outlined under the 5 articles; first to change and
add another method of finding one guilty; other than trial by jury and waiver of this right.
A lot of people have violated their oath of office, to support, uphold and defend the
Constitution.
Its petitioner conclusion that the president harrowed a procedure which is in consisted with
the [UCMJ], Waiving trial in the military will make a defacto waiver of the courts
authority, to find me guilty. Article 3 and amendments are inapplicable to the military so
what right did I waive. This petition/habeas corpus pursuant to § 28 use 2241,1651 (a) all
writs act should be granted.

Respectively Submitted
Richard J. Ramsey
4A Buck Road
Middletown, RI02842

Date

»*
(7)
*■

